No. 19-547

In the Supreme Court of the United States
UNITED STATES FISH AND WILDLIFE SERVICE, ET AL.,
PETITIONERS

v.
SIERRA CLUB, INC.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR THE PETITIONERS

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
JOSEPH H. HUNT
JEFFREY BOSSERT CLARK
Assistant Attorneys General
EDWIN S. KNEEDLER
Deputy Solicitor General
MICHAEL R. HUSTON
Assistant to the Solicitor
General
H. THOMAS BYRON III
THOMAS PULHAM
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Whether Exemption 5 of the Freedom of Information
Act, 5 U.S.C. 552(b)(5), by incorporating the deliberative process privilege, protects against compelled disclosure of federal agencies’ draft documents that were
prepared as part of a formal interagency consultation
process under Section 7 of the Endangered Species Act
of 1973, 16 U.S.C. 1536, and that concerned a proposed
agency action that was later modified in the consultation process.

(I)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory and regulatory provisions involved ........................... 2
Statement:
A. Legal framework ............................................................... 2
B. The present controversy................................................... 7
Summary of argument ............................................................... 17
Argument:
The deliberative process privilege through FOIA
Exemption 5 protects the Services’ draft documents
prepared during the interagency ESA consultation
process .................................................................................... 22
A. Congress incorporated the deliberative process
privilege into FOIA to protect effective
governmental decisionmaking ....................................... 22
B. The Services’ discussion drafts prepared during
their deliberations before making a decision are
privileged.......................................................................... 27
1. The Services continued deliberating until they
issued their final biological opinion addressing
EPA’s final rule .......................................................... 28
2. The Services’ draft documents that were not
adopted and were not shared in full with EPA
did not have binding legal force ................................ 30
C. The court of appeals erred by refusing to sustain
the deliberative process privilege for the Services’
draft documents ............................................................... 35
1. Draft documents do not lose their privilege when
the agency action under review is abandoned or
modified ....................................................................... 36
2. A discussion draft does not become final unless
and until an official with authority makes a
decision to adopt the draft ......................................... 40

(III)

IV
Table of Contents—Continued:

Page

3. The court of appeals’ reasoning would
undermine Congress’s purposes in incorporating
the deliberative process privilege into FOIA .......... 44
Conclusion ................................................................................... 48
Appendix — Statutory and regulatory provisions ................ 1a
TABLE OF AUTHORITIES

Cases:
Abdelfattah v. U.S. Dep’t of Homeland Sec.,
488 F.3d 178 (3d Cir. 2007) .................................................. 4
Abtew v. United States Dep’t of Homeland Sec.,
808 F.3d 895 (D.C. Cir. 2015) ........................... 19, 29, 35, 47
American Fed’n of Gov’t Emps. v. U.S. Dep’t of
Commerce, 907 F.2d 203 (D.C. Cir. 1990) ........................ 35
Bennett v. Spear, 520 U.S. 154 (1997).................. 6, 18, 28, 32
City of Virginia Beach v. United States Dep’t of
Commerce, 995 F.2d 1247 (4th Cir. 1993)........................... 4
Coastal States Gas Corp. v. Department of Energy,
617 F.2d 854 (D.C. Cir. 1980) ......................................... 3, 24
Cooling Water Intake Structure Coal. v. United
States Envtl. Prot. Agency, 905 F.3d 49
(2d Cir. 2018) ........................................................... 11, 12, 35
Department of the Interior v. Klamath Water Users
Protective Ass’n, 532 U.S. 1 (2001) ................2, 3, 23, 34, 44
EPA v. Mink, 410 U.S. 73 (1973) ............................... 4, 23, 24
FTC v. Grolier Inc., 462 U.S. 19 (1983) ................................. 4
Federal Open Mkt. Comm. of the Fed. Reserve Sys.
v. Merrill, 443 U.S. 340 (1979) ........................................... 23
Florida House of Representatives v. United States
Dep’t of Commerce, 961 F.2d 941 (11th Cir.),
cert. dismissed, 506 U.S. 969 (1992) .................. 4, 26, 39, 47

V
Cases—Continued:

Page

Food Mktg. Inst. v. Argus Leader Media,
139 S. Ct. 2356 (2019) ......................................................... 22
John Doe Agency v. John Doe Corp.,
493 U.S. 146 (1989).............................................................. 22
Lead Indus. Ass’n v. OSHA, 610 F.2d 70
(2d Cir. 1979) ................................................................... 4, 45
Mobil Oil Corp. v. United States Envtl. Prot.
Agency, 879 F.2d 698 (9th Cir. 1989) ................................ 47
NLRB v. Sears, Roebuck & Co.,
421 U.S. 132 (1975)..................................................... passim
National Ass’n of Home Builders v. Defenders of
Wildlife, 551 U.S. 644 (2007) ............................................. 32
National Sec. Archive v. CIA, 752 F.3d 460
(D.C. Cir. 2014) .......................................................... passim
National Wildlife Fed’n v. United States Forest
Serv., 861 F.2d 1114 (9th Cir. 1988) ........................ 4, 26, 45
Renegotiation Bd. v. Grumman Aircraf t Eng’g
Corp., 421 U.S. 168 (1975) ......................................... passim
Schell v. United States Dep’t of Health & Human
Servs., 843 F.2d 933 (6th Cir. 1988) .................................. 39
Town of Norfolk v. United States Army Corps
of Eng’rs, 968 F.2d 1438 (1st Cir. 1992) ........................ 4, 35
United States v. Nixon, 41 U.S. 683 (1974)......................... 24
United States Army Corps of Eng’rs v. Hawkes Co.,
136 S. Ct. 1807 (2016) ......................................................... 32
Upjohn Co. v. United States 449 U.S. 383 (1981) ......... 25, 39
Statutes and regulations:
Clean Water Act of 1977, 33 U.S.C. 1251 et seq.................... 7
33 U.S.C. 1326(b) ............................................................... 8

VI
Statutes and regulations—Continued:

Page

Endangered Species Act of 1973,
Pub. L. No. 93-205, 87 Stat. 844
(16 U.S.C. 1531 et seq.):
§ 7, 87 Stat. 892 (16 U.S.C. 1536) ......................... passim
16 U.S.C. 1533(c) ............................................................... 5
16 U.S.C. 1536(a)(2) ................................................. 5, 7, 3a
16 U.S.C. 1536(b)(3)(A) ............................................... 6, 5a
16 U.S.C. 1536(b)(4) .................................................... 7, 5a
FOIA Improvement Act of 2016,
Pub. L. No. 114-185, 130 Stat. 538:
§ 2(1), 130 Stat. 538 ........................................................... 4
§ 2(2), 130 Stat. 539-540 .................................................... 5
§ 6, 130 Stat. 544-545 ......................................................... 5
Freedom of Information Act,
5 U.S.C. 552 ..................................................................... 2, 1a
5 U.S.C. 552(a) ............................................................. 2, 1a
5 U.S.C. 552(a)(2)(A) ................................................. 37, 1a
5 U.S.C. 552(a)(2)(B) ................................................. 37, 1a
5 U.S.C. 552(a)(4)(B) ....................................................... 13
5 U.S.C. 552(a)(8)(A) ................................................... 4, 47
5 U.S.C. 552(b) ........................................2, 4, 17, 22, 46, 1a
5 U.S.C. 552(b)(5) ............................... 2, 3, 5, 17, 23, 27, 1a
50 C.F.R.:
Section 402.13 .................................................................... 5
Section 402.14 ........................................................ 7, 16, 7a
Section 402.14(a) .......................................................... 6, 7a
Section 402.14(b).......................................................... 6, 7a
Section 402.14(g)........................................................ 7, 11a
Section 402.14(g)(4) ................................................... 6, 11a
Section 402.14(g)(5) ................................6, 7, 9, 31, 32, 12a
Section 402.14(h)........................................................ 6, 13a

VII
Regulations—Continued:

Page

Section 402.14(h)(2) ................................................... 6, 14a
Section 402.14(i) ......................................................... 7, 14a
Section 402.14(m)(1) ................................................ 28, 18a
Miscellaneous:
51 Fed. Reg. 19,926 (June 3, 1986) ....................................... 31
76 Fed. Reg. 22,174 (Apr. 20, 2011) .................................... 7
79 Fed. Reg. 48,300 (Aug. 15, 2014) ..................................... 11
80 Fed. Reg. 26,832 (May 11, 2015) ....................................... 6
84 Fed. Reg. 44,976 (Aug. 27, 2019) ....................................... 6
H.R. Rep. No. 1497, 89th Cong., 2d Sess. (1966) ................ 23
S. Rep. No. 813, 89th Cong., 1st Sess. (1965)................ 23, 24
U.S. Dep’t of Justice, Guide to the Freedom of
Information Act, Exemption 5 (Aug. 26, 2019),
https://go.usa.gov/xvXxS...................................................... 4
U.S. Fish and Wildlife Serv. & Nat’l Marine
Fisheries Serv., Endangered Species Act Section 7
Consultation Programmatic Biological Opinion
on the U.S. Environmental Protection Agency’s
Issuance and Implementation of the Final Regulations Section 316(b) of the Clean Water Act (May
19, 2014), https://go.usa.gov/xvBuK .................................. 11

In the Supreme Court of the United States
No. 19-547
UNITED STATES FISH AND WILDLIFE SERVICE, ET AL.,
PETITIONERS

v.
SIERRA CLUB, INC.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR THE PETITIONERS

OPINIONS BELOW

The amended opinion of the court of appeals (Pet. App.
1a-37a) is reported at 925 F.3d 1000. The order of the
district court (Pet. App. 38a-53a) is unreported.
JURISDICTION

The judgment of the court of appeals was entered on
December 21, 2018. A petition for rehearing was denied
on May 30, 2019 (Pet. App. 2a). On August 19, 2019, Justice Kagan extended the time within which to file a petition for a writ of certiorari to and including September
27, 2019. On September 17, 2019, Justice Kagan further
extended the time to and including October 25, 2019, and
the petition was filed on that date. The petition for a writ
of certiorari was granted on March 2, 2020. The jurisdiction of this Court rests on 28 U.S.C. 1254(1).

(1)

2
STATUTORY AND REGULATORY
PROVISIONS INVOLVED

Pertinent statutory and regulatory provisions are
reproduced in the appendix to this brief. App., infra,
1a-19a.
STATEMENT

This case involves Exemption 5 of the Freedom of
Information Act (FOIA), 5 U.S.C. 552(b)(5), which protects against compelled disclosure of documents reflecting a federal agency’s deliberations over a governmental decision. See NLRB v. Sears, Roebuck & Co.,
421 U.S. 132, 150 (1975). The district court refused to
apply the deliberative process privilege to certain draft
documents prepared by petitioners (two federal agencies) during a formal interagency consultation process
under Section 7 of the Endangered Species Act of 1973
(ESA), Pub. L. No. 93-205, 87 Stat. 892 (16 U.S.C. 1536).
See Pet. App. 38a-53a. The court of appeals affirmed.
Id. at 1a-37a. The courts ordered the agencies to release
their discussion drafts even though those documents
were created to assist the agencies during their ongoing
deliberations, and even though the preliminary analysis
in those drafts was not adopted by the relevant agency
decisionmakers.
A. Legal Framework

1. FOIA generally mandates disclosure upon request of records held by a federal agency, “unless the
documents fall within enumerated exceptions.” Department of the Interior v. Klamath Water Users Protective
Ass’n, 532 U.S. 1, 7 (2001); see 5 U.S.C. 552(a); 5 U.S.C.
552(b) (“This section does not apply to matters that
are” covered by one of the listed exemptions.). FOIA
Exemption 5 authorizes an agency to withhold “inter-

3
agency or intra-agency memorandums or letters that
would not be available by law to a party other than an
agency in litigation with the agency.” 5 U.S.C. 552(b)(5).
One of the most well-established litigation privileges
for government agencies is the deliberative process
privilege, which protects “documents reflecting advisory opinions, recommendations and deliberations comprising part of a process by which governmental decisions and policies are formulated.” Sears, 421 U.S. at
150 (citation and internal quotation marks omitted).
Congress intentionally incorporated the deliberative
process privilege into FOIA in order “to enhance ‘the
quality of agency decisions’ by protecting open and
frank discussion among those who make them within
the Government,” based on “the obvious realization that
officials will not communicate candidly among themselves if each remark is a potential item of discovery and
front page news.” Klamath Water Users, 532 U.S. at
8-9 (quoting Sears, 421 U.S. at 151); see National Sec.
Archive v. CIA, 752 F.3d 460, 462 (D.C. Cir. 2014)
(Kavanaugh, J.).
This Court has described the deliberative process
privilege through FOIA Exemption 5 in straightforward terms: The privilege “distinguish[es] between
predecisional memoranda prepared in order to assist an
agency decision-maker in arriving at his decision, which
are exempt from disclosure, and postdecisional memoranda setting forth the reasons for an agency decision
already made, which are not.” Renegotiation Bd. v.
Grumman Aircraft Eng’g Corp., 421 U.S. 168, 184 (1975).
Consistent with that holding, federal courts have repeatedly held that agencies’ “draft[s] of what will
become a final document” are privileged and exempt
from compelled disclosure. Coastal States Gas Corp. v.

4
Department of Energy, 617 F.2d 854, 866 (D.C. Cir.
1980); see, e.g., Abdelfattah v. U.S. Dep’t of Homeland
Sec., 488 F.3d 178, 183-184 (3d Cir. 2007) (per curiam);
City of Virginia Beach v. United States Dep’t of Commerce, 995 F.2d 1247, 1253 (4th Cir. 1993); Town of Norfolk v. United States Army Corps of Eng’rs, 968 F.2d
1438, 1458 (1st Cir. 1992); Florida House of Representatives v. United States Dep’t of Commerce, 961 F.2d
941, 945-946 (11th Cir.), cert. dismissed, 506 U.S. 969
(1992); National Wildlife Fed’n v. United States Forest
Serv., 861 F.2d 1114, 1117 (9th Cir. 1988); Lead Indus.
Ass’n v. OSHA, 610 F.2d 70, 86 (2d Cir. 1979); see also
U.S. Dep’t of Justice, Guide to the Freedom of Information Act, Exemption 5, at 39 & n.174 (Aug. 26, 2019)
(citing several district court decisions), https://go.usa.gov/
xvXxS.
FOIA Exemption 5 differs from agencies’ litigationdiscovery privileges in one important respect: FOIA
“by its terms” does not “permit inquiry into particularized needs of the individual seeking the information,
although such an inquiry would ordinarily be made of a
private litigant.” EPA v. Mink, 410 U.S. 73, 86 (1973).
Thus, Exemption 5 applies to all documents “ ‘normally
privileged,’ ” and privileged documents do not become
subject to disclosure under FOIA based on a party’s
claim of “need,” even if that “party’s need * * * would
be sufficient to override the privilege” in a litigation
context. FTC v. Grolier Inc., 462 U.S. 19, 28 (1983)
(quoting Sears, 421 U.S. at 149). 1
In 2016, after the events in this case, Congress amended FOIA
to provide that an agency is entitled to withhold information “only
if * * * the agency reasonably foresees that disclosure would harm
an interest protected by an exemption described in” Section 552(b).
FOIA Improvement Act of 2016, Pub. L. No. 114-185, § 2(1), 130
1

5
2. This case concerns the application of the deliberative process privilege to draft documents created during a formal interagency consultation process under
Section 7 of the ESA. The ESA directs the Secretary of
the Interior and the Secretary of Commerce to maintain
a list of all species determined to be “endangered” or
“threatened” according to specified criteria, and to designate their “critical habitat.” 16 U.S.C. 1533(c). Section 7 of the ESA then requires each federal agency to
“insure that any action authorized, funded, or carried
out” by the agency “is not likely to jeopardize the continued existence of any endangered species or threatened
species or result in the destruction or adverse modification of [critical] habitat.” 16 U.S.C. 1536(a)(2).
Agencies carry out their ESA responsibilities “in
consultation with and with the assistance of ” the U.S.
Fish and Wildlife Service (FWS) and the National Marine
Fisheries Service (NMFS) (collectively, the Services),
acting as delegatees of the Secretaries of the Interior
and Commerce, respectively. 16 U.S.C. 1536(a)(2). The
consultation process may be informal in some circumstances. 50 C.F.R. 402.13. But if an agency determines
that its proposed action is likely to adversely affect a
listed species or critical habitat, then the agency must

Stat. 538-539 (5 U.S.C. 552(a)(8)(A)). Congress also added a sunset
provision to Exemption 5 that limits the deliberative process privilege to documents less than 25 years old when the FOIA request is
made. § 2(2), 130 Stat. 539-540 (5 U.S.C. 552(b)(5)). Those amendments apply only to prospective FOIA requests, § 6, 130 Stat. 544545, and they do not affect this case. See Pet. App. 12a n.7. The
FOIA Improvement Act also made a minor grammatical change to
the phrasing of Section 552(b)(5) that does not affect its substance.
§ 2(2), 130 Stat. 539-540 (5 U.S.C. 552(b)(5)). For the Court’s convenience, this brief cites the current version of the statute.

6
engage in a formal consultation with one or both Services, depending on the species involved. 50 C.F.R.
402.14(a) and (b). 2
The culmination of a formal consultation is the issuance by one or both Services of a “written statement,”
called a “biological opinion,” “setting forth the [Service’s] opinion” as to “how the agency action affects the
species or its critical habitat,” 16 U.S.C. 1536(b)(3)(A)—
specifically, whether the action’s effects, taken together
with cumulative effects and added to an environmental
baseline, are “likely to jeopardize the continued existence of listed species or result in the destruction or
adverse modification of critical habitat,” 50 C.F.R.
402.14(g)(4); see 50 C.F.R. 402.14(h) (describing a “biological opinion”); see also Bennett v. Spear, 520 U.S.
154, 158 (1997). If a Service concludes that jeopardy to
ESA-listed species or adverse modification of critical
habitat will likely result from the agency’s action—that
is, if it issues what is known as a “jeopardy opinion”—
then it must suggest any “reasonable and prudent alternatives” (RPAs) to the agency action that the Service
believes will avoid jeopardy or adverse modification.
16 U.S.C. 1536(b)(3)(A); see 50 C.F.R. 402.14(h)(2). If a
Service concludes that the agency action will not
result in jeopardy or adverse modification of critical

Subsequent to the events of this case, the regulations governing
ESA Section 7 consultation were amended in 2015 and 2019 in certain respects not material here. See 80 Fed. Reg. 26,832, 26,84426,845 (May 11, 2015); 84 Fed. Reg. 44,976, 44,516-44,517 (Aug. 27,
2019). Subsection (g)(5) of 50 C.F.R. 402.14, the provision principally relevant here, was not amended. Other subsections cited in
this brief were amended or redesignated without material change to
the points for which they are cited. For the Court’s convenience,
this brief cites the current version of the regulations.
2

7
habitat, or if it issues RPAs, then the Service must provide a written statement (called an “incidental take
statement”) specifying the “impact of such incidental
taking on the species,” any “reasonable and prudent
measures that the [Service] considers necessary or appropriate to minimize such impact,” and “the terms and
conditions * * * that must be complied with by the [action] agency * * * to implement th[ose] measures.”
16 U.S.C. 1536(b)(4); see 50 C.F.R. 402.14(i).
ESA Section 7 and the regulations implementing it
provide for the interagency consultation process to be
collaborative. See 16 U.S.C. 1536(a)(2); 50 C.F.R. 402.14.
The Services and the action agency work together to
determine the likely effects on listed species and critical
habitat from the agency’s action, and if necessary, how
best to mitigate adverse effects. See 50 C.F.R. 402.14(g).
The Services must “[d]iscuss” with the action agency
their “review and evaluation” in the consultation process, as well as “the basis for any finding” in their opinion. 50 C.F.R. 402.14(g)(5). The Services must also provide a “draft biological opinion” to the action agency
upon request “for the purpose of analyzing the [RPAs],”
and “while the draft is under review,” the Services “will
not issue” a final biological opinion. Ibid. The Services
are then provided extra time, if necessary, to modify the
draft opinion in response to agency comments. Ibid.
B. The Present Controversy

1. In April 2011, the U.S. Environmental Protection
Agency (EPA) proposed new regulations for certain
“cooling water intake structures,” which power plants
and manufacturing facilities use to dissipate heat from
industrial processes. 76 Fed. Reg. 22,174 (Apr. 20, 2011)
(Intake-Structures Rule, or rule). The Clean Water Act
of 1977, 33 U.S.C. 1251 et seq., directs EPA to establish

8
standards for cooling water intake structures that
reflect the best available technology to “minimiz[e]
adverse environmental impact.” 33 U.S.C. 1326(b). Some
cooling water intake structures have the potential to
adversely affect some ESA-listed species or their critical habitat, so after informally consulting with the Services, EPA requested formal consultation on its IntakeStructures Rule in 2013. Pet. App. 2a-4a.
The consultation process was lengthy and involved
extensive back-and-forth among the three agencies,
which worked collaboratively to achieve a regulatory
solution that would benefit ESA-listed species. Pet.
App. 4a-6a; see J.A. 32-33 (declaration of Samuel Rauch,
Acting Assistant Administrator for NMFS); J.A. 56-58
(declaration of Gary Frazer, Assistant Director of FWS
Ecological Services). For almost two years, personnel
from the agencies “met routinely, sometimes more than
once a week,” J.A. 32; held “multiple conference calls,”
ibid.; and “exchanged thousands of emails,” J.A. 58.
Over the course of the consultation, agency staff circulated, either within their own agency or among each
other, “[m]ultiple pre-decisional drafts” of the final
EPA rule, the Services’ biological opinions, and portions
of each of those documents, as well as related documents such as “briefing and options papers.” J.A. 32.
Those drafts were the subject of “frank discussions” as
the agencies “considered and reconsidered” “multiple
options for EPA’s regulation and the [Services’] biological opinion,” with “many” of those options being “rejected.” J.A. 58. During that period, agency employees
routinely solicited and received “comments and suggestions” on their draft documents, which were then “revised on the author’s own initiative or in response to
comments[,] and then recirculated.” J.A. 32.

9
Amid the ongoing consultation process, the agencies
agreed that the Services would provide EPA with a
draft biological opinion prior to making their final decision, consistent with the Services’ regulatory obligations under 50 C.F.R. 402.14(g)(5) to discuss their findings with the action agency and share a draft jeopardy
opinion upon request before final issuance. See, e.g.,
J.A. 89, 91. In November 2013, the Services received a
draft of EPA’s final rule for inter-agency review from
the Office of Management and Budget. Pet. App. 4a-5a.
The Services then “tentatively agreed” with EPA that
they would provide “a draft biological opinion” to EPA
for its review by December 6, 2013, with final biological
opinions anticipated to follow by December 20, 2013. Id.
at 5a; see J.A. 37.
Staff at each Service thereafter continued to work on
draft biological opinions, first to be circulated in draft
form to EPA if supervisors approved transmission, and
then subsequently, if signed and approved, to be finally
issued. J.A. 37-38, 58. Those draft opinions reached
preliminary conclusions that EPA’s draft final IntakeStructures Rule was likely to cause jeopardy for certain
ESA-listed species and adversely modify critical habitat. Pet. App. 5a. The Services’ staffs also prepared
draft RPAs and other documents potentially to accompany the draft jeopardy opinions if they were issued.
Ibid.; see id. at 9a-12a (describing the relevant documents). Those draft documents “reflect[ed] only the
preliminary thinking of the [Services] at the time of the
draft.” J.A. 67 (FWS); see J.A. 39 (NMFS draft was “a
preliminary analysis”).
As the anticipated time for the Services to share
their draft opinions with EPA approached, the “staff
members and lower level managers” who had prepared

10
the draft biological opinions and other documents sent
them as “recommendations * * * to individuals with
decision-making authority” at the Services. J.A. 67.
Around the same time, agency personnel began making
preparations to circulate those drafts to EPA if they
received authorization for that step. For example, FWS
employees prepared a cover letter on agency letterhead
for transmitting the FWS draft biological opinion. Pet.
App. 25a. Agency staff also prepared “talking points”
for legislative-affairs staff regarding the biological
opinions, and they discussed how the opinions should be
distributed outside the Services if decisionmakers gave
their authorization. See id. at 5a, 19a, 25a.
The Services’ decisionmakers did not, however, finalize the provisional draft biological opinions that were
sent to them in December 2013. J.A. 37-38, 58. In fact,
the Services did not even reach the stage of “formally
transmit[ing]” draft opinions to EPA for its review.
Pet. App. 5a. Instead, while the December 2013 recommendation drafts were still under “internal review,”
J.A. 58-59, the Services’ decisionmakers determined
that “more work needed to be done,” J.A. 37. The FWS
decisionmaker, Gary Frazer, decided that “additional
consultation was needed to better understand and consider the operation of key elements of EPA’s rule,” and
he observed that some of those elements “were still
being deliberated within EPA.” J.A. 58. The NMFS
decisionmaker, Samuel Rauch, similarly observed that
“EPA was still considering provisions in” the IntakeStructures Rule at the time. J.A. 37. As a result, rather
than share their draft biological opinions with EPA as
originally planned by December 6, the Services merely
sent EPA portions of the draft opinions and the draft
RPAs. See Pet. App. 5a-6a; J.A. 38 (“NMFS never sent

11
its” December 2013 draft opinion “to EPA.”); J.A. 58-59
(FWS’s December 2013 draft opinion was “never * * *
distributed to EPA as the [Service’s] official preliminary position.”). The Services and EPA then “agreed to
extend the time frame for the consultation.” J.A. 59.
Over the next few months, the Services engaged in
further “extensive discussions with the EPA,” Pet. App.
41a, including about “changes to EPA’s Regulation”
that might affect ESA-listed species or critical habitat,
J.A. 39. In March 2014, EPA sent an updated version
of its draft final Intake-Structures Rule to the Services,
and the agencies continued consultation. Pet. App. 6a.
That updated version “differed from” EPA’s 2013 draft
Intake-Structures rule, and those revisions caused the
Services to change their preliminary conclusion regarding the likelihood of jeopardy. J.A. 39. Thus, the Services signed and issued a joint final biological opinion in
May 2014, finding that EPA’s rule would not jeopardize
any ESA-listed species or adversely modify critical habitat. Pet. App. 6a; see J.A. 33, 56-57; see also FWS &
NMFS, Endangered Species Act Section 7 Consultation Programmatic Biological Opinion on the U.S.
Environmental Protection Agency’s Issuance and Implementation of the Final Regulations Section 316(b)
of the Clean Water Act (May 19, 2014) (Final Biological
Opinion), https://go.usa.gov/xvBuK. EPA issued its final
Intake-Structures Rule the same day. Pet. App. 6a; see
79 Fed. Reg. 48,300 (Aug. 15, 2014).
2. Shortly after EPA published its final IntakeStructures Rule, respondent in this Court (Sierra Club,
Inc.) and others filed petitions for review challenging
both the EPA rule and the Services’ no-jeopardy biological opinion. See Cooling Water Intake Structure Coal. v.
United States Envtl. Prot. Agency, 905 F.3d 49, 58 (2d

12
Cir. 2018). The Second Circuit denied the petitions for
review, finding that “the Services’ biological opinion is
consistent with the ESA and its implementing regulations, and their no-jeopardy finding is supported by the
administrative record.” Id. at 83-84.
In the course of that litigation, Sierra Club and others sought to compel the agencies to supplement the
administrative record by publicly filing various documents, including the Services’ December 2013 draft biological opinions prepared during the consultation process. See Cooling Water Intake Structure Coalition,
905 F.3d at 65 n.9. The agencies invoked the deliberative process privilege over those drafts. See ibid. The
Second Circuit sustained the privilege and denied the
request to order supplementation of the administrative
record, holding that the agencies had “adequately describe[d] the nature of the * * * requested documents
and their rationale for classifying those documents as
deliberative and therefore privileged.” Ibid.
3. Separately, shortly after EPA’s final IntakeStructures Rule was issued in 2014, respondent submitted broad FOIA requests to each Service for records
related to the consultation process. Pet. App. 6a; see
J.A. 33-36. The Services released thousands of documents, but withheld others under FOIA Exemption 5
based on the deliberative process privilege. Pet. App.
6a-7a. The NMFS official responsible for supervising
the consultation process has explained that he invoked
the deliberative process privilege because “candid and
frank discussions” had been “[c]entral” to this consultation, and he did not want those types of discussions “to
be in [any way] discouraged or chilled.” J.A. 38. The
FWS supervising official has similarly explained his
judgment that, “[i]f the candid views of staff contained

13
in the [withheld] [d]ocuments were disclosed, the quality of future internal deliberations on resource issues
would suffer,” because “personnel may hesitate to provide their frank and forthright opinions and recommendations on these draft documents based on fears that
candid recommendations would be broadcast outside
the executive branch and misunderstood outside of context.” J.A. 63. In addition, the Services’ officials explained that, because “some of these documents reflect
positions that [the Services] did not adopt,” the Services
“d[id] not want to create confusion with their release”
or be forced to use “resources to defend those rejected
positions.” J.A. 38 (NMFS).
Respondent then filed this suit in 2015 against the
Services under FOIA in the Northern District of California. Pet. App. 8a. Respondent argued that the Services had improperly withheld documents under
Exemption 5, including several of the same documents
that it and others were attempting to obtain (ultimately
unsuccessfully) in the Second Circuit. The parties
worked together to narrow the dispute to a small number of documents, which the district court reviewed in
camera. See id. at 42a; see also 5 U.S.C. 552(a)(4)(B).
On cross motions for summary judgment, the district
court found that some of the disputed documents were
protected by the deliberative process privilege, but it
ordered the Services to disclose 11 documents in full
and another with one sentence redacted. Pet. App. 38a53a. The court ordered the Services to release: the
December 2013 provisional draft biological opinions;
draft RPAs prepared as possible parts of a biological
opinion; a series of species-specific documents describing steps that operators of cooling water intake structures should follow if particular species may be affected

14
by their operations; a statistical chart showing estimated aggregated effects of cooling water intake structures on protected species; and a set of terms and conditions that operators of cooling water intake structures
must follow to qualify for a particular kind of ESA
exemption. See id. at 46a-52a. The court reasoned that
those documents were unprotected because they were
“relatively polished drafts.” Id. at 45a (citation omitted).
4. The government appealed. A divided panel of the
court of appeals affirmed in part and reversed in part.
Pet. App. 1a-29a. After reviewing the disputed documents in camera, the panel majority concluded that the
deliberative process privilege through FOIA Exemption 5 protected three of the documents, but that the
Services must disclose the other nine: the two December 2013 provisional draft biological opinions; the
species-specific measures, statistical chart, and terms
and conditions, all of which the Services’ staff had prepared potentially to accompany the December 2013
draft jeopardy opinions; and one set of draft RPAs from
March 2014. See id. at 15a-28a.
a. The panel majority stated that the deliberative
process privilege required the government to show that
the challenged documents were “both ‘pre-decisional
and deliberative,’ ” factors the majority “analyzed separately although the issues they address overlap.” Pet.
App. 14a-15a (citation omitted). The majority acknowledged that the Services’ December 2013 draft biological
opinions and the other documents at issue were prepared during the Services’ decisionmaking process in
the ESA consultation, that the Services’ draft opinions
were not signed or issued by decisionmakers, and that
those drafts were never even transmitted in full to EPA.

15
See id. at 4a-6a, 18a. The majority further acknowledged that the Services’ December 2013 provisional
draft biological opinions were abandoned and replaced
before the Services issued their joint Final Biological
Opinion in May 2014. See id. at 19a-20a, 24a. But the
majority nevertheless concluded that the December
2013 discussion drafts were not pre-decisional or deliberative, because the May 2014 final biological opinion
addressed a “different version of the EPA’s rule,” id. at
20a, whereas the December 2013 drafts “represent the
final view of the Services regarding the then-current”
version of EPA’s draft rule, id. at 18a (emphasis added);
see id. at 24a, 26a. 3
After the panel majority thus limited its focus to the
Services’ views of EPA’s “then-proposed” draft rule,
the majority concluded that the Services’ December
2013 discussion drafts were not pre-decisional because
they gave the Services’ “final conclusions” about that
earlier draft rule. Pet. App. 18a. The majority stated
that the Services’ drafts “had been approved by final
decision-makers at each agency”; that the FWS decisionmaker had “made final edits” to that draft opinion
and “the document was awaiting his autopen signature”; and that NMFS “was preparing ‘talking points’
for its legislative affairs staff ” and “preparing to release
The panel majority gave a similar rationale for ordering the Services to disclose the draft RPA from March 2014: In the majority’s
view, that document “appears to be the final version in a progression
of agency recommendations about how to amend the November
2013 proposed rule.” Pet. App. 28a. The majority did not take issue
with the Services’ showing (J.A. 69) that they did not adopt or finalize that draft RPA, but the majority nevertheless reasoned that,
because the Services did not prepare “any subsequent versions of
this RPA,” the document “is therefore not deliberative” or predecisional. Pet. App. 28a; see id. at 17a.
3

16
the drafts to the public.” Id. at 19a. The majority further held that the other draft documents at issue were
not pre-decisional because they likewise addressed a
prior version of EPA’s proposal. Id. at 20a-21a.
The panel majority went on to conclude, on similar
grounds, that the December 2013 draft biological opinions and the other documents prepared to accompany
those drafts were not “deliberative.” Pet. App. 21a-28a.
The majority again invoked the fact that those drafts
addressed “a different version” of EPA’s proposal. Id.
at 24a; see id. at 26a. And the majority stated that the
Services’ December 2013 discussion drafts were “final
products,” reasoning that they “d[id] not contain line
edits, marginal comments, or other written material”
that would reveal internal agency discussion; that the
documents did not reflect the views of only “lower level
employees” but had been sent to decisionmakers; and
that the FWS draft opinion had a cover letter on agency
letterhead. Id. at 25a-26a.
b. Judge Wallace concurred in part and dissented in
part, concluding that all of the documents at issue are
protected by the deliberative process privilege. Pet.
App. 30a-37a. He criticized the majority for “overlook[ing] the ‘context of the administrative process
which generated’ the December [2013] draft opinions,”
specifically, that ESA Section 7 and its implementing
regulations set up an interagency consultation process
designed to enable the Services and the action agency
to modify their views and their draft documents in light
of feedback from one another. Id. at 30a (quoting Sears,
421 U.S. at 138, and citing 50 C.F.R. 402.14). Judge
Wallace noted, in particular, the declarations by the
Services’ officials explaining that the December 2013
draft biological opinions were never signed or finalized,

17
and were never even transmitted in full to EPA, because: (1) the agencies agreed that more work needed
to be done in the consultation process, and (2) EPA later
modified its proposal for the Intake-Structures Rule in
ways that caused the Services to change their conclusions regarding potential jeopardy to ESA-listed species and critical habitat. Id. at 31a-32a. Therefore,
Judge Wallace explained, the regulations and the record both showed that “the Services had not made a final
decision as of December [2013] and the deliberative process was ongoing.” Id. at 32a.
Judge Wallace further observed that the Services’
decision in an ESA consultation becomes final only
when a final biological opinion is issued, and he explained that a draft document that “ ‘dies on the vine’ ”—
as the Services’ December 2013 draft opinions did when
EPA modified its rule—“ ‘is still a draft and thus still
pre-decisional and deliberative.’ ” Pet. App. 33a (quoting National Security Archive, 752 F.3d at 463) (brackets omitted).
c. A majority of the panel voted to deny the Services’ petition for rehearing, and the court of appeals
denied the Services’ petition for rehearing en banc. Pet.
App. 2a.
SUMMARY OF ARGUMENT

FOIA “does not apply” to documents identified in its
exemptions, 5 U.S.C. 552(b)—including, under Exemption 5, “inter-agency or intra-agency memorandums or
letters that would not be available by law to a party” in
litigation with the agency because of the deliberative
process privilege. 5 U.S.C. 552(b)(5); see NLRB v. Sears,
Roebuck & Co., 421 U.S. 132, 150 (1975). That privilege
protects the Services’ draft decision documents in an
interagency consultation process under ESA Section 7.

18
A. Congress incorporated the deliberative process
privilege into FOIA because it found that effective governmental decisionmaking depends on agencies’ ability
to have “ ‘frank discussion of legal or policy matters’ in
writing,” which in turn depends critically on protecting
agencies’ documents “ ‘reflecting * * * recommendations and deliberations’ ” concerning their decisions.
Sears, 421 U.S. at 150 (citations omitted). For the deliberative process privilege to succeed at promoting
candor in individual agency employees, the privilege
must have clear rules. See National Security Archive
v. CIA, 752 F.3d 460, 463 (D.C. Cir. 2014) (Kavanaugh,
J.). Accordingly, this Court has described FOIA Exemption 5 in straightforward terms: FOIA “distinguish[es]
between predecisional memoranda prepared in order to
assist an agency decision-maker in arriving at his decision, which are exempt from disclosure, and postdecisional memoranda setting forth the reasons for an
agency decision already made, which are not.” Renegotiation Bd. v. Grumman Aircraft Eng’g Corp., 421 U.S.
168, 184 (1975).
B. The draft documents at issue in this case fall well
within the bounds of the deliberative process privilege.
1. The ESA Section 7 regulations and Bennett v.
Spear, 520 U.S. 154, 177-178 (1997), establish that the
Services made their decision in the consultation process
only when they signed and issued their Final Biological
Opinion in May 2014. Before the Services’ made their
decision, in December 2013, they prepared provisional
drafts of biological opinions and related materials under
consideration to accompany those draft opinions if they
were finally issued. Those drafts were created for purposes of discussion, and they provided a “valuable de-

19
liberative tool” in the ESA Section 7 process that improved the Services’ ability to protect species. Grumman Aircraft, 421 U.S. at 190. But those provisional
drafts were twice removed from being final: they had
not yet even been approved for circulation to EPA in
draft form, as the Services committed to doing and as
called for by the ESA Section 7 regulations, nor had
they been approved for final issuance, at which point
they would be subject to judicial review.
The Services’ December 2013 provisional drafts—
containing preliminary analysis by agency staff and
prepared as recommendations to supervisors with decisionmaking authority, J.A. 67—are “classic example[s]
of a deliberative document.” Abtew v. United States
Dep’t of Homeland Sec., 808 F.3d 895, 899 (D.C. Cir.
2015) (Kavanaugh, J.). Those documents are privileged
because, until the Final Biological Opinion was issued,
the Services’ decisionmakers were free to “change their
minds.” Grumman Aircraft, 421 U.S. at 189-190. And
that is just what occurred here. Decisionmakers did not
adopt the December 2013 drafts prepared by their
staffs, or even circulate those drafts in full to EPA,
because they decided that more work was needed. The
record thus demonstrates that the draft documents in
this case were part of the Services’ ongoing deliberations, not “postdecisional memoranda.” Id. at 184.
2. Respondent contends that the Services’ December 2013 draft documents were not really drafts at all,
but documents with the force of law that carried binding
legal consequences. That is incorrect. The Services
could not have imposed legal obligations through draft
documents that were not adopted by decisionmakers.
The ESA Section 7 regulations required that, before the

20
Services made a final decision, they discuss their findings with EPA and share a draft of a jeopardy opinion
for EPA’s review upon request—a step that undisputedly did not occur. Moreover, the non-final documents
at issue in this case are fundamentally unlike the agency
documents that this Court has found to carry the force
of law. The Services’ drafts are instead much more like
the recommendations in Grumman Aircraft that this
Court found did not have binding effect. 421 U.S. at
185-190.
C. The court of appeals erred in concluding that the
Services’ non-final discussion drafts were neither “predecisional” nor “deliberative.”
1. No precedent supports the Ninth Circuit’s principal conclusion that the Services’ December 2013 discussion drafts were not privileged because they were the
Services’ last word on “EPA’s then-proposed regulation.” Pet. App. 18a. This Court has held that the protection of the deliberative process privilege reaches its
limit at documents that describe an agency’s final decision or carry the force of law, not draft documents that
the agency abandoned. See Grumman Aircraft, 421
U.S. at 184-190; Sears, 421 U.S. at 155-160. The record
shows that the Services’ decisionmakers never made a
final decision regarding EPA’s earlier proposal. And as
then-Judge Kavanaugh explained for the D.C. Circuit,
“[t]here may be no final agency document because a
draft died on the vine,” but the “draft is still a draft and
thus still pre-decisional and deliberative.” National
Security Archive, 752 F.3d at 463.
2. The Ninth Circuit also erred by concluding that
the Services’ December 2013 discussion drafts were “final products.” Pet. App. 25a. The court relied on facts
showing agency staff making preparations to share the

21
provisional draft opinions with EPA in December 2013,
but those facts do not rebut the Services’ showing that
the preliminary analysis in those drafts was not adopted
or finalized. Indeed, as mentioned, it is undisputed that
the Services never did circulate the December 2013
draft biological opinions in full to EPA.
3. The court of appeals’ reasoning would severely
undermine Congress’s purposes in incorporating the
deliberative process privilege into FOIA. The Ninth
Circuit’s amorphous standard for the deliberative process privilege eliminates the clarity that is necessary for
the privilege to be effective. If the privilege for agencies’ draft documents were made dependent on contingent events like whether the agency action under
review was later modified, or whether staff members
polished the drafts and made preparations to finalize
them, then agency personnel could not have confidence
that their draft analyses and recommendations would
be protected, and some employees would likely be less
candid as a result. See National Security Archive, 752
F.3d at 463. The Ninth Circuit’s flawed standard for the
deliberative process privilege would also undermine the
authority of agency decisionmakers to pause a decisionmaking process that is nearing completion, and it
would force agencies to face criticism for, and potentially litigation over, matters the agency considered
before making up its mind.
Finally, respondent contends that the Services do
not need protection for their deliberative materials.
But that argument simply contradicts Congress’s judgment about agency decisionmaking and this Court’s
crediting of the force of human experience.

22
ARGUMENT
THE DELIBERATIVE PROCESS PRIVILEGE THROUGH
FOIA EXEMPTION 5 PROTECTS THE SERVICES’ DRAFT
DOCUMENTS PREPARED DURING THE INTERAGENCY
ESA CONSULTATION PROCESS

The agency documents at issue in this case are unfinalized, un-circulated discussion drafts. Both the record and the ESA Section 7 regulations show conclusively that those draft documents “reflect[ ] * * * recommendations and deliberations comprising part of a
process by which” the Services “formulated” their assessment of EPA’s Intake-Structures Rule. NLRB v.
Sears, Roebuck & Co., 421 U.S. 132, 150 (1975) (citation
omitted). The drafts are therefore exempt from compelled disclosure under the deliberative process privilege through FOIA Exemption 5.
A. Congress Incorporated The Deliberative Process Privilege Into FOIA To Protect Effective Governmental
Decisionmaking

1. FOIA “does not apply” to documents identified in
its exemptions. 5 U.S.C. 552(b). The exemptions serve
“important interests,” and they are “as much a part of
FOIA’s purposes and policies as the statute’s disclosure
requirement.” Food Mktg. Inst. v. Argus Leader Media,
139 S. Ct. 2356, 2366 (2019) (brackets and citations omitted). FOIA thereby establishes a “workable balance between the right of the public to know and the need of
the Government to keep information in confidence to
the extent necessary without permitting indiscriminate
secrecy.” John Doe Agency v. John Doe Corp., 493 U.S.
146, 152 (1989) (citation omitted).
When Congress enacted FOIA Exemption 5 and protected “inter-agency or intra-agency memorandums or

23
letters that would not be available” in litigation with an
agency, 5 U.S.C. 552(b)(5), it had the deliberative process privilege “specifically in mind.” Sears, 421 U.S. at
150. That well-established privilege “protect[s] the ‘decision making processes of government agencies’ ” by
withholding “documents ‘reflecting advisory opinions,
recommendations and deliberations comprising part of
a process by which governmental decisions and policies
are formulated.’ ” Ibid. (citations omitted).
The deliberative process privilege pre-dates FOIA,
and was recognized by federal courts based on the public policy of encouraging candor in governmental decisionmaking. See EPA v. Mink, 410 U.S. 73, 86-87 (1973).
Congress endorsed that rule when it enacted FOIA, and
it “echoed again and again during legislative analysis”
the “importance” of ensuring that agencies can conduct
“ ‘frank discussion of legal or policy matters in writing,’ ”
which Congress believed would be “ ‘impossible’ ” if such
documents were subject to disclosure. Id. at 87 (quoting
S. Rep. No. 813, 89th Cong., 1st Sess. 9 (1965) (Senate
Report)); see Federal Open Mkt. Comm. of the Fed.
Reserve Sys. v. Merrill, 443 U.S. 340, 355 (1979) (observing that the deliberative process privilege was “expressly mentioned in the legislative history of ” Exemption 5); see also H.R. Rep. No. 1497, 89th Cong., 2d Sess.
10 (1966).
Thus, as this Court has explained, Congress incorporated the deliberative process privilege into FOIA
because it found it “obvious” that agency personnel
“will not communicate candidly among themselves”
without protection for deliberative material, Department of the Interior v. Klamath Water Users Protective
Ass’n, 532 U.S. 1, 8-9 (2001), and Congress believed
“that the ‘decisions’ and ‘policies formulated’ would be

24
the poorer as a result,” Sears, 421 U.S. at 150 (citing
Senate Report 9); see Mink, 410 U.S. at 86-87. This
Court has observed that “human experience teaches
that those who expect public dissemination of their
remarks may well temper candor with a concern for
appearances . . . to the detriment of the decisionmaking
process.” Sears, 421 U.S. at 150-151 (quoting United
States v. Nixon, 418 U.S. 683, 705 (1974)) (brackets and
emphasis omitted). Indeed, as then-Judge Kavanaugh,
writing for the D.C. Circuit, observed, protecting deliberative material is “as old as the Republic”: the delegates to the Constitutional Convention “agreed at the
outset that none of the deliberations would be shared
with outsiders.” National Security Archive v. CIA, 752
F.3d 460, 462 (2014).
In addition to promoting candor, the deliberative
process privilege advances other important interests.
It prevents “premature disclosure of proposed policies”
that have not yet been “finally formulated or adopted.”
Coastal States Gas Corp. v. Department of Energy,
617 F.2d 854, 866 (D.C. Cir. 1980). And it “protect[s]
against confusing the issues and misleading the public
by” releasing documents containing “rationales for a
course of action which were not in fact the ultimate reasons for the agency’s action.” Ibid. The privilege thereby
ensures that agency officials are “judged by what they
decided, not for matters they considered before making
up their minds.” National Security Archive, 752 F.3d
at 462 (citation omitted).
At the same time, this Court has explained that
the deliberative process privilege poses no threat to
FOIA’s general objective of promoting transparency in
government, because “the public is only marginally concerned with reasons supporting a policy which an

25
agency has rejected, or with reasons which might have
supplied, but did not supply, the basis for a policy which
was actually adopted on a different ground.” Sears, 421
U.S. at 152.
2. For the deliberative process privilege to succeed
at promoting candor in individual agency employees,
the privilege must have clear rules. See National Security Archive, 752 F.3d at 463. For “in order for a privilege to encourage frank and candid debate, the speaker
or writer must have some strong assurance at the time
of the communication that the communication will remain confidential.” Id. at 464; see Upjohn Co. v. United
States, 449 U.S. 383, 393 (1981).
Consistent with that need for clear and workable
rules, this Court’s cases have described the deliberative
process privilege under FOIA Exemption 5 in straightforward terms. In Sears, for example, the Court distinguished two kinds of memoranda prepared by the General Counsel of the National Labor Relations Board
(NLRB), based on whether the document was the
agency’s “final” “disposition” or an interim step along
the way. 421 U.S. at 155 (citation omitted); see id. at
155-160. The Court held that a memorandum constituting a decision not to file an unfair labor practice complaint was not privileged, because under NLRB rules,
that decision was “unreviewable” and “ ‘constitutes final
agency action of precedential import.’ ” Id. at 155, 157
(citation omitted). By contrast, a memorandum directing the filing of a complaint was privileged, because that
document “d[id] not finally dispose” of an NLRB proceeding, and instead preceded the Board’s decision that
would ultimately resolve the case. Id. at 159; see id. at
159-160.

26
Similarly, in Renegotiation Board v. Grumman Aircraft Engineering Corp., 421 U.S. 168 (1975), this Court
again focused on whether the documents at issue
were final agency decisions. The Court explained that
the deliberative process privilege “distinguish[es] between predecisional memoranda prepared in order to
assist an agency decision-maker in arriving at his decision, which are exempt from disclosure, and postdecisional memoranda setting forth the reasons for an
agency decision already made, which are not.” Id. at
184. Applying that standard, the Court held that reports and recommendations to the administrative entity
with decisionmaking authority (the Renegotiation
Board) were privileged. Id. at 185-190. Those recommendations did not “ha[ve] the force of law” akin to the
decision of a federal district court, id. at 186, because
the Board was “free, after discussion, to reject [them],”
id. at 177. The reports had been “created for the purpose of discussion,” and the Court explained that it was
“unwilling to deprive the Board of a thoroughly uninhibited version of this valuable deliberative tool by making [the reports] public.” Id. at 189-190.
Based on those precedents, the federal courts of appeals have reached a consensus that the deliberative
process privilege has two requirements: The agency
material at issue must be “ ‘predecisional’ ”—i.e., it was
prepared “before any final agency decision on the relevant matter”—and it must be “ ‘deliberative’ ”—i.e., it
was “intended to facilitate or assist development of the
agency’s final position on the relevant issue.” National
Security Archive, 752 F.3d at 463 (citation omitted); see
also, e.g., Florida House of Representatives v. United
States Dep’t of Commerce, 961 F.2d 941, 945-946 (11th
Cir.), cert. dismissed, 506 U.S. 969 (1992); National

27
Wildlife Fed’n v. United States Forest Serv., 861 F.2d
1114, 1117 (9th Cir. 1988).
B. The Services’ Discussion Drafts Prepared During Their
Deliberations Before Making A Decision Are Privileged

“[T]he function of the documents in issue [here] in
the context of the administrative process which generated them”—which this Court has called “[c]rucial” to
application of the deliberative process privilege—makes
this a straightforward case for applying the privilege.
Sears, 421 U.S. at 138.
The documents at issue in this case are non-final
drafts of biological opinions, and drafts of materials that
were under consideration to accompany those opinions
if they had been issued in final form. See Pet. App. 5a,
9a-12a. It is undisputed that the documents are “interagency or intra-agency records.” 5 U.S.C. 552(b)(5).
And the record shows that the Services created those
documents to facilitate their “deliberations” in assessing
the likely effect of EPA’s Intake-Structures Rule on
protected species and critical habitat, as part of a consultation process that concluded when the Services
issued their Final Biological Opinion. Sears, 421 U.S. at
150 (citation omitted).
The only remaining question in this case, therefore,
is whether the Services’ draft documents were just
that—drafts. They were. The record and the Section
7 regulations show that the provisional draft documents
at issue here were “prepared in order to assist” the Services’ “decision-maker[s] in arriving at [their] decision”;
none was a “postdecisional memorand[um] setting forth
the reasons for” a final decision “already made.” Grumman Aircraft, 421 U.S. at 184.

28
1. The Services continued deliberating until they
issued their Final Biological Opinion Addressing
EPA’s Final Rule

The Services made their final decision regarding
EPA’s rule when they issued their Final Biological
Opinion in May 2014, not when agency personnel sent
recommendations to the Services’ decisionmakers in
December 2013. The ESA regulations provide that
“[f ]ormal consultation is terminated with the issuance
of the biological opinion.” 50 C.F.R. 402.14(m)(1). And
this Court has held that it is the issuance of a final biological opinion that marks the “ ‘consummation’ of the
[Service’s] decisionmaking process,” and constitutes final
agency action that is subject to judicial review. Bennett
v. Spear, 520 U.S. 154, 177-178 (1997) (citation omitted).
The Services’ Final Biological Opinion stated that it was
the agencies “final” decision, J.A. 110, and it was signed
by decisionmakers, which signified the agencies’ official
adoption of that position, J.A. 112. The Services also
made that document publicly available, p. 11, supra,
thereby enabling any interested person to determine
“the basis for” the decision they “actually adopted.”
Sears, 421 U.S. at 152.
By sharp contrast, the Services’ December 2013
draft biological opinions, and the other draft documents
at issue in this case, were not finalized or signed by decisionmakers, were not publicly disseminated, and were
not treated by the Services as official conclusions. Rather, the Services’ officials who supervised the consultation process have stated in sworn declarations that
those documents “reflect[ed] only the preliminary
thinking of the [Services] at the time.” J.A. 67 (FWS
official) (emphasis added); see J.A. 39 (NMFS official

29
stating that its December 2013 draft “reflec[ted] a preliminary analysis”). The documents were prepared by
the Services’ “staff members and lower level managers”
and then provided as “recommendations * * * to individuals [at the Services] with decision-making authority,” who reviewed and edited the drafts but did not
finalize them. J.A. 67 (emphasis added); see J.A. 37, 5859. As then-Judge Kavanaugh explained for the D.C.
Circuit, “[a] recommendation to a supervisor on a matter pending before the supervisor is a classic example of
a deliberative document.” Abtew v. United States Dep’t
of Homeland Sec., 808 F.3d 895, 899 (2015).
Even though some of the draft documents at issue in
this case were close to being ready for circulation to
EPA, and were moving toward final issuance if the
ongoing consultation had not prompted revisions, the
Services’ deliberative process over EPA’s rule remained ongoing until the Services “made” their “decision.” Grumman Aircraft, 421 U.S. at 184. And that
occurred only when the Services finalized and issued
their Final Biological Opinion. Under this Court’s
FOIA Exemption 5 precedents, the determinative fact
for applying the deliberative process privilege is that,
until the Services issued their Final Biological Opinion,
the decisionmakers were free to “change their minds.”
Id. at 189-190; cf. Sears, 421 U.S. at 155-157 (NLRB
General Counsel memorandum declining to file a complaint was not privileged because it was “ ‘final’ ” and
“unreviewable”) (citation omitted).
In fact, a change of mind is just what happened here.
The recommendations that were given to the Services’
decisionmakers in December 2013 “w[ere] not adopted,”
J.A. 39, because those officials determined “that more

30
work needed to be done,” J.A. 58-59. Indeed, as respondent concedes, the decisionmakers never even circulated the December 2013 draft biological opinions in
full to EPA. Pet. App. 5a; J.A. 39, 58-59; see Br. in Opp.
9 (acknowledging that the December 2013 draft opinions were only “partially transmitted”). Thus, the documents at issue in this case are really drafts of drafts
that were two steps removed from finality: they were
provisional drafts of what would be a draft circulation
for EPA’s review. Such documents do not describe final
“agency decision[s] already made.” Grumman Aircraft,
421 U.S. at 184.
2. The Services’ draft documents that were not adopted
and were not shared in full with EPA did not have
binding legal force

Respondent’s answer to all of the evidence in the record showing the draft status of the Services’ December
2013 documents—including the absence of a signature,
the decisionmakers declining to accept the preliminary
analysis because more work was needed, and the lack
even of circulation in full to the action agency—is to dismiss those facts as “formalities” and argue that the Services’ draft documents actually “had the ‘force and effect’ of a final jeopardy finding.” Br. in Opp. 29-30 (quoting Sears, 421 U.S. at 153). Respondent is incorrect.
a. First, respondent’s attempt to attribute binding
legal force to the Services’ December 2013 draft documents conflicts with the regulations implementing ESA
Section 7. Consistent with Congress’s objective that the
consultation process would operate through “[i]nteragency cooperation,” 16 U.S.C. 1536 (title), the applicable regulations require the Services to “[d]iscuss” their
“review and evaluation” with the action agency (here,

31
EPA), as well as any “finding” in their biological opinion. 50 C.F.R. 402.14(g)(5). Moreover, the regulations
require that, if the Services prepare a draft jeopardy
opinion, the Services “shall make available * * * the
draft biological opinion” to the action agency upon request, “for the purpose of analyzing the reasonable and
prudent alternatives,” and the Services “will not issue”
a final biological opinion “while the draft is under review
by the [action] agency.” Ibid. (emphasis added).
The self-evident purpose of those cooperation requirements is to “allow the Services to consider changes
to the draft opinion based on the agency’s comments.”
Pet. App. 30a (Wallace, J. dissenting in part). The Services have explained that sharing draft opinions with
other agencies has several benefits: Circulating drafts
“may result in the development and submission of additional data, and the preparation of more thorough biological opinions”; it “helps ensure the technical accuracy
of the opinion”; and it can prompt an action agency to
identify “valid biological reasons [that] mandate a
change” in the Services’ preliminary views. 51 Fed.
Reg. 19,926, 19,952 (June 3, 1986). In the consultation
here, the Services committed to sharing a draft biological opinion with EPA before finalizing the opinion, consistent with the Section 7 regulations. See p. 9, supra.
The Services’ regulatory obligations to discuss their
findings with EPA and share upon request a draft jeopardy opinion before final issuance establish as a matter
of law that, contrary to respondent’s contention, draft
biological opinions like those at issue here do not carry
binding legal force. As Judge Wallace correctly observed
in his dissent below, “[s]eeking comments on a document presupposes the ability to make changes to it.”
Pet. App. 31a. Respondent gains nothing by invoking

32
(Br. in Opp. 20-21) the “direct and appreciable legal consequences” that flow from a final biological opinion,
Bennett, 520 U.S. at 178, because only a final biological
opinion carries those consequences, see id. at 177-178.
And a final biological opinion is issued only “[o]nce the
consultation process contemplated by [the ESA] has
been completed,” which is after the Services have discussed their findings with the action agency. National
Ass’n of Home Builders v. Defenders of Wildlife, 551
U.S. 644, 652 (2007); see 50 C.F.R. 402.14(g)(5). If respondent or any other party had attempted to bring suit
based on something in the Services’ December 2013
provisional draft biological opinions, that claim would
have been swiftly dismissed for lack of final agency
action.
Respondent invokes United States Army Corps of
Engineers v. Hawkes Co., 136 S. Ct. 1807 (2016), and
argues that the fact that the Services retained authority
to make changes to the draft biological opinions in
December 2013 “does not make an otherwise definitive
decision nonfinal.” Br. in Opp. 30-31 (quoting 136 S. Ct.
at 1814). But this Court in Hawkes referred to the possibility that the agency would revise its completed decision later “based on ‘new information.’ ” 136 S. Ct. at
1814 (citation omitted). The critical point in Hawkes
was that, as it stood, the agency’s work was done. Id. at
1813-1814 (finding that the agency decision at issue “is
typically not revisited”). Whereas here, the record
proves that the Services’ consultation was still active
and ongoing in December 2013.
Even if the Services had shared their drafts for
EPA’s review in December 2013, therefore, that would
not have rendered them final decisions. See J.A. 38
(“By providing a draft for transmission to another

33
agency, [a Service] is not rendering a final decision. The
document remains a draft and is subject to change until
final signature.”). It follows a fortiori that the draft
documents at issue here—which undisputedly were
never shared in full with EPA for its review because decisionmakers determined that more work was needed—
are privileged.
b. Respondent’s attempt to attribute the force of law
to the Services’ un-finalized, un-circulated draft documents also conflicts with this Court’s Exemption 5 precedents, as well as cases from multiple other courts of
appeals.
Respondent contends (Br. in Opp. 30) that, when
EPA learned about the Services’ preliminary jeopardy
conclusion, it was motivated to make changes to its draft
final rule. But even if true, that does not show that the
Services’ preliminary analysis imposed binding legal
obligations on EPA. This Court has explained that an
agency document falls outside the deliberative process
privilege when it “carries * * * legal weight” akin to
the decision of a federal district court; not merely
because it prompts another party voluntarily to take
some action. Grumman Aircraft, 421 US. at 186-187.
The Court in Grumman Aircraft specifically contrasted
legally binding documents with a draft or “recommendation,” which “has no operative effect independent of ”
review by a decisionmaker, and is privileged for that
reason. Ibid.
The Court in Grumman Aircraft went on to explain
that protecting such documents advances Congress’s
purpose for FOIA Exemption 5, because discussion
drafts or recommendations can provide a “valuable deliberative tool” that should remain “thoroughly uninhib-

34
ited.” 421 U.S. at 189-190. The ESA Section 7 consultation process in this case proves the Court’s point. The
Services and EPA participated in “frank discussions” in
which their staff considered and reconsidered “multiple
options” (many of which were “rejected”), and they
exchanged “comments and suggestions” on their drafts,
J.A. 32, 57-58—a process that “enhance[d] ‘the quality
of ’ ” their decisions, Klamath Water Users, 532 U.S. at
8-9 (quoting Sears, 421 U.S. at 151).
Thus, to the extent respondent is correct (Br. in Opp.
30) that EPA “reduce[d] the [Intake-Structures] Rule’s
impact on protected species” as a result of learning the
Services’ preliminary views, that shows only that the
ESA consultation process here worked as Congress
intended for the benefit of protected species, and that
the Services worked with EPA to strengthen their decisionmaking process in just the sorts of ways that the
deliberative process privilege exists to facilitate. See
Grumman Aircraft, 421 U.S. at 188 (“Exemption 5 does
not distinguish between inter-agency and intra-agency
memoranda.”). But the Services’ preliminary analysis
that was under internal review by decisionmakers in
December 2013 could not possibly have imposed any
binding legal obligations on EPA—as explained above,
that preliminary analysis was not adopted, and was not
even shared in full with EPA. J.A. 39, 58-59.
This Court has also explained that agencies’ documents generated in a deliberative process remain privileged after the decision is made, because in Congress’s
judgment, that protection is critical to prompting open
and frank discussions in the first place. See Sears, 421
U.S. at 150-151. Consistent with that holding, multiple
courts of appeals have applied the deliberative process
privilege to various kinds of internal agency documents

35
even after decisions were issued. In Abtew, for example, the D.C. Circuit held that Exemption 5 protected a
document prepared within the Department of Homeland Security that summarized an alien’s asylum interview and made a recommendation to a supervisor on
whether he should be granted asylum, because the document was “written as part of the process by which the
supervisor came to that final decision.” 808 F.3d at 898899. In Town of Norfolk v. United States Army Corps
of Engineers, 968 F.2d 1438 (1st Cir. 1992), the court
upheld the privilege for “an unsigned draft letter” prepared by an agency official, because the letter “reflects
a preliminary position by the [agency] that was subsequently rejected.” Id. at 1458. In American Federation
of Government Employees v. U.S. Department of Commerce, 907 F.2d 203 (D.C. Cir. 1990), the court found
that FOIA Exemption 5 precluded compelled disclosure
of documents recommending personnel actions for
agency employees, explaining that those documents reflected positions “to which the [agency] was not yet
committed.” Id. at 208. And as discussed above, when
the Second Circuit considered respondent’s petition for
review of the Services’ Final Biological Opinion, it sustained the agencies’ invocation of the deliberative process privilege over the very same documents that
respondent has attempted to obtain in this suit under
FOIA. See Cooling Water Intake Structure Coal. v.
United States Envtl. Prot. Agency, 905 F.3d 49, 65 n.9
(2d Cir. 2018).
C. The Court Of Appeals Erred By Refusing To Sustain
The Deliberative Process Privilege For The Services’
Draft Documents

The Ninth Circuit acknowledged that the documents
at issue in this case were drafts, and that the Services

36
did not make their final decision in the interagency consultation until May 2014. See Pet. App. 18a. But the
court nevertheless concluded that the December 2013
discussion drafts were neither “pre-decisional” nor “deliberative,” reasoning that those documents “represent
the final view of the Services regarding the thencurrent November 2013 [EPA] proposed rule,” whereas
the Final Biological Opinion “represents the final view
of the Services regarding the later March 2014 revised,
[EPA] proposed rule.” Ibid. (emphasis added); see id.
at 24a. That reasoning is flawed both legally and factually, and it conflicts with Congress’s purposes for incorporating the deliberative process privilege into FOIA.
1. Draft documents do not lose their privilege when the
agency action under review is abandoned or modified

The Ninth Circuit’s most fundamental mistake,
which it repeated throughout its opinion, was concluding that the Services’ December 2013 draft documents
could not be pre-decisional or deliberative because they
addressed “a different version” of the EPA rule than
did the Final Biological Opinion. Pet. App. 20a; see id.
at 18a, 21a, 24a, 26a, 28a. No precedent of this Court
supports that reasoning.
This Court has explained that the deliberative process privilege reaches its limit at “communications * * *
occurring after the [agency’s] decision is finally
reached,” Sears, 421 U.S. at 151, or documents “setting
forth the reasons for an agency decision already made,”
Grumman Aircraft, 421 U.S. at 184. None of the Court’s
Exemption 5 cases has suggested that an agency’s draft
document can lose its privilege when the proposed
agency action under consideration is abandoned or
modified. On the contrary, the Court observed in Sears

37
that agencies’ work will commonly “generate memoranda containing recommendations which do not ripen
into agency decisions,” and the Court cautioned “the
lower courts” to “be wary of interfering with this process.” 421 U.S. at 151 n.18. The mere fact that the December 2013 drafts may have been the last documents
the Services prepared regarding EPA’s 2013 version of
its draft final rule is irrelevant to the deliberative process privilege, because the record and the Section 7 regulations show that the Services never made a final
decision about the 2013 EPA proposal.
The text of FOIA’s affirmative disclosure mandate
reinforces the basic distinction this Court has drawn
between agencies’ final decisions and documents that
were prepared during their deliberations about a decision not yet made. FOIA requires agencies to disclose
their “final opinions” and “statements of policy and
interpretations which have been adopted.” 5 U.S.C.
552(a)(2)(A) and (B) (emphases added). The statutory
text thus shows that Congress separated protected documents from unprotected ones based on whether the
document actually established a final opinion, policy, or
interpretation, not whether the document addressed an
earlier version of an agency proposal.
The Ninth Circuit’s “different version” rationale
would severely undermine agencies’ ability to protect
their deliberative material. Throughout the government, it is routine for deliberative processes of many
kinds to involve multiple successive drafts of a proposal
under review, or for agency personnel to prepare drafts
for decisionmakers that ultimately go unadopted. Under the Ninth Circuit’s decision, plaintiffs seeking to
discover pre-decisional agency communications would
simply argue that the agency’s decisionmaking process

38
must be subdivided according to its different “versions,” and then would claim entitlement to documents
that purportedly were the last word on earlier versions.
Such a rule would gut agencies’ ability to protect their
deliberations. And that is especially true for an interagency process like the ESA Section 7 consultation
here, which involved back-and-forth over multiple draft
versions from EPA. See J.A. 32.
Moreover, the Ninth Circuit’s holding would undermine Congress’s core purpose for Exemption 5 to improve the quality of agency decisionmaking by promoting candid discussions. If agency employees believed
that their drafts and recommendations could cease to be
privileged simply because a new “version” of the proposal under review might be developed, then some
employees might stop providing their best advice, and
agency deliberations “would be the poorer as a result.”
Sears, 421 U.S. at 150. As then-Judge Kavanaugh explained in National Security Archive, the writer of a
document “does not know at the time of writing whether
the draft will evolve into a final document. But the
writer needs to know at the time of writing that the privilege will apply and that the draft will remain confidential, in order for the writer to feel free to provide candid
analysis.” 752 F.3d at 463. If the Ninth Circuit’s approach were adopted and the deliberative process privilege were made “contingent” on future developments—
like whether EPA prepared a subsequent version of its
draft final rule—then the privilege would be decidedly
“uncertain” for agency employees, which is “ ‘little better than no privilege at all.’ ” Ibid. (quoting Upjohn, 449
U.S. at 393).
The FOIA requester in National Security Archive
sought a draft of Volume V of the CIA’s official history

39
of the Bay of Pigs invasion, arguing that, even if a draft
history would ordinarily be privileged, “there was no final CIA history that arose out of or corresponded to
Volume V.” 752 F.3d at 462-463. The D.C. Circuit rejected that argument, holding that “[t]here may be no
final agency document because a draft died on the vine,”
but the “draft is still a draft and thus still pre-decisional
and deliberative.” Ibid. The court pointed out that any
number of agency documents may not “actually evolve
into final Executive Branch actions”: “a draft speech
that the President never gives,” or “a draft regulation
that the Attorney General never issues.” Ibid. But
“[t]hose kinds of documents are no less drafts than the
drafts that actually evolve into final Executive Branch
actions.” Ibid.
The D.C. Circuit’s reasoning in National Security
Archive shows why the Ninth Circuit erred in this case:
The Services’ December 2013 draft biological opinions
may have died on the vine when EPA modified the proposal that was discussed in those drafts, but that fact
does nothing to alter the documents’ status as drafts
reflecting the agency’s deliberations over their decision
concerning EPA’s action. The D.C. Circuit’s position
refusing to order disclosure of drafts that do not ripen
into final agency decisions is shared by multiple other
courts of appeals. See, e.g., Florida House of Representatives, 961 F.2d at 950 (“draft policy options which
are ultimately rejected are protected from disclosure
under the deliberative process privilege”); Schell v.
United States Dep’t of Health & Human Servs., 843
F.2d 933, 941 (6th Cir. 1988) (“When specific advice is
provided, * * * it is no less predecisional because it is
* * * rejected in silence.”); see also pp. 3-4, supra. It is
telling that the Ninth Circuit below did not cite a single

40
decision from any other court of appeals—in the more
than 50 years since Congress enacted Exemption 5—
holding that an agency’s draft documents cease to be
privileged because the drafts were abandoned.
2. A discussion draft does not become final unless and
until an official with authority makes a decision to
adopt the draft

Rejecting the Ninth Circuit’s “different version”
analysis for the deliberative process privilege is sufficient by itself to reverse the decision below. In addition,
though, the Ninth Circuit compounded its error by concluding that the Services’ December 2013 draft biological opinions were “final conclusions by the final decisionmakers” on the earlier EPA proposal. Pet. App. 18a;
see id. at 19a, 25a, 27a. The record and the ESA Section
7 regulations both refute that conclusion.
a. As explained above, decisionmakers at each Service have stated in sworn declarations that the December 2013 drafts “reflect[ed] a preliminary analysis.”
J.A. 39 (NMFS); see J.A. 67 (FWS draft was “a preliminary narrative analysis”). But that preliminary analysis “was not adopted” by the decisionmakers, J.A. 39,
who decided during internal review “that more work
needed to be done,” including because EPA was “still
considering provisions in the draft Regulation,” J.A. 37;
see J.A. 58-59. As a result, the Services’ December 2013
discussion drafts were never even “distributed to EPA
as the [Services’] official preliminary position.” J.A. 5859 (FWS); see J.A. 39 (NMFS).
As also explained above, even if the Services had circulated their December 2013 provisional drafts to EPA,
that exchange would not have constituted final agency
action, because the Services committed, consistent with
the ESA Section 7 regulations, to providing a draft

41
opinion for EPA’s review before finalizing their decisions. See pp. 30-33, supra. Therefore, the undisputed
fact that the Services never even reached the stage of
being ready to provide the December 2013 draft biological opinions in full for EPA’s review proves that those
drafts did not, and could not, contain the Services’ “final
conclusions.” Pet. App. 18a.
b. The reasons given by the court of appeals for nevertheless attributing finality to these draft documents
are not persuasive, and the court’s reasoning conflicts
with this Court’s precedent.
i. The Ninth Circuit invoked the fact that the
December 2013 draft opinions were not solely the work
of “low-level officials,” because those documents had
been sent to the Services’ decisionmakers, who edited
them. Pet. App. 25a; see id. at 19a (referring to “email
correspondence” and stating the FWS decisionmaker,
Gary Frazer, had “made final edits” to FWS’s December 2013 draft biological opinion and “the document was
awaiting his autopen signature”).
In the first place, the Ninth Circuit’s conclusion that
Mr. Frazer made “final” edits to FWS’s December 2013
draft biological opinion is contrary to the record. Mr.
Frazer has explained in his declaration that, although
he edited that document, he did not finalize it, because
he concluded during internal review that the draft
needed more work and additional consultation with
EPA. J.A. 58-59. And again, the undisputed fact that
Mr. Frazer did not share the December 2013 FWS draft
with EPA confirms his explanation. The “email correspondence” to which the Ninth Circuit referred is fully
consistent with Mr. Frazer’s declaration. That single
email—which was sent by Mr. Frazer’s administrative
assistant—attached a “letter” with a “Draft” biological

42
opinion that contained “instructions” to a subordinate
employee, and the email stated that those instructions
needed to be completed before the attachment would be
ready to be sent out. J.A. 105. The email itself thus
confirms that the administrative assistant referred to
signing by “autopen” the letter that would merely have
transmitted FWS’s draft biological opinion in draft
form to EPA. See also J.A. 66-67. And in all events, a
draft document that is prepared for a decisionmaker’s
signature but is not signed is not final, and the Ninth
Circuit erred by holding otherwise.
Even setting aside the Ninth Circuit’s flawed factual
analysis, this Court has already rejected the contention
that the fact that an agency decisionmaker like Mr. Frazer worked on a draft document removes its privileged
status. See Grumman Aircraft, 421 U.S. at 189-190.
The plaintiffs in Grumman Aircraft argued that the
privilege should not apply to agency reports that had
been prepared in part by “those who participate in the”
agency’s ultimate “decision,” id. at 189, but this Court
rejected that argument, observing that the official “may
change his mind as a result of ” further discussion. Id.
at 190. The decisive point, the Court held, “is that the
report [was] created for the purpose of discussion,” and
the Court would not endorse “the unsupported assumption” that discussion drafts “always disclose the final
views of ” decisionmakers who work on them. Ibid. The
Services’ December 2013 draft opinions were likewise
prepared for internal discussion and then consultation
with EPA before being finalized, which confirms their
privileged status.
ii. The remainder of the Ninth Circuit’s reasoning
similarly does not support its conclusion that the
December 2013 draft opinions were final products that

43
were not “deliberative.” The court observed that the
draft documents “do not contain line edits” or “marginal
comments,” Pet. App. 25a; that FWS staff had created
a cover letter for its draft biological opinion with the
“agency’s seal/header,” ibid.; and that NMFS “was preparing ‘talking points’ for its legislative affairs staff and
preparing to release the drafts to the public” if they had
received authorization from decisionmakers, id. at 19a.
The court of appeals’ reasoning misunderstands
what it means for agency documents to be “deliberative.” All of the provisional drafts in this case were
deliberative because they were “intended to facilitate or
assist development of the [Services’] final position on”
EPA’s rule. National Security Archive, 752 F.3d at
463. None of the facts identified by the Ninth Circuit
suggests otherwise. It is common for draft documents
of many different kinds to become increasingly polished
as they approach completion, through steps like resolving the line edits and margin comments or preparing a
cover letter on letterhead. And it is also common for
agency staff to prepare in advance for the issuance of a
document that is expected to be made public soon,
including by deciding on the format for its release and
informing staff who will liaise about that document
when it is released. But taking those steps does not convert a nearly final draft document into a final decision
when agency decisionmakers still have the authority to
change their mind—as they did here. See Grumman
Aircraft, 421 U.S. at 189-190. The deliberative process
privilege stops at final agency documents, id. at 184,
and a Service’s decision in an ESA Section 7 consultation is not final until it issues a final biological opinion.
See p. 28, supra.

44
3. The court of appeals’ reasoning would undermine
Congress’s purposes in incorporating the deliberative process privilege into FOIA

The Ninth Circuit’s watered down standard for
applying the deliberative process privilege to draft
agency documents would produce several of the very
harms that Congress sought to prevent when it incorporated the deliberative process privilege into FOIA
Exemption 5.
a. First, as explained above, the decision below eliminates the clarity that is necessary for the deliberative
process privilege to preserve “open and frank discussion[s]” as Congress intended. Klamath Water Users,
532 U.S. at 8-9. The Ninth Circuit replaced this Court’s
straightforward articulation of the privilege—was the
document prepared “to assist an agency decision-maker
in arriving at his decision,” or did it explain “the reasons
for an agency decision already made,” Grumman Aircraft, 421 U.S. at 184—with an amorphous, multi-factor
“functional approach,” Pet. App. 21a (citation omitted),
that gives weight to facts like whether a new version of
the proposal under review was developed, whether
agency staff began preparing for the possibility of a
draft decision becoming final, and whether line edits
and margin comments were added or removed from the
document. The individual agency employees who prepare draft documents will not know at the time of writing whether any of those things will occur in the future,
so the Ninth Circuit’s approach to the privilege would
not allow them to have confidence that their candid recommendations will remain protected, which Congress
found would obviously impact the quality of their advice.
See National Security Archive, 752 F.3d at 463; see also
J.A. 63-64 (FWS official explaining that he did not want

45
agency personnel to “hesitate to provide their frank and
forthright opinions and recommendations on these
draft documents based on fears that candid recommendations would be broadcast outside the executive
branch”); J.A. 38 (NMFS official explaining that he
“d[id] not want these communications to be in [any way]
discouraged or chilled for fear of disclosure”).
Second, the court of appeals’ ruling would undermine
the ability of agency decisionmakers to pause a deliberative process that is approaching its conclusion and
decide that the agency has more work to do before making a final decision. The fact that the decisionmakers in
this case decided during their internal review to hold off
on finalizing the December 2013 drafts, see J.A. 37, 5859, is a sign of a healthy deliberative process, and the
Ninth Circuit erred by treating that pause as a reason
to lift the privilege on deliberative material.
Third, the court of appeals’ decision would risk forcing agencies to defend their final decisions in light of
preliminary analysis that was not adopted. See J.A. 38
(NMFS official invoked the deliberative process privilege over these drafts in part because he “d[id] not want
to create confusion with their release or to use NMFS’s
resources to defend those rejected positions”). Respondent told the court of appeals that it wanted the
Services’ deliberative drafts in order to litigate challenges to federal agency actions and engage in public
advocacy. See Resp. C.A. Unopposed Motion to Expedite Appeal 6-8 (Sept. 21, 2017). But “[s]ubjecting a policymaker to public criticism on the basis of such tentative assessments is precisely what the deliberative process privilege is intended to prevent.” National Wildlife Fed’n, 861 F.2d at 1120; see Lead Indus. Ass’n v.

46
OSHA, 610 F.2d 70, 86 (2d Cir. 1979) (Friendly, J.) (rejecting the plaintiff ’s claim to “know in just what respects the Assistant Secretary departed from the staff
reports she had before her,” because “such disclosure
of the internal workings of the agency is exactly what
the law forbids”). “[A]gency officials ‘should be judged
by what they decided, not for matters they considered
before making up their minds.’ ” National Security Archive, 752 F.3d at 462 (citation omitted).
b. Finally, respondent contends (Br. in Opp. 37) that
there is no reason to think that ordering disclosure of
the Services’ provisional drafts would diminish the quality of their deliberations, because the Services have
sometimes released other draft biological opinions in
the past.
Respondent’s argument amounts to little more than
a disagreement with Congress’s policy judgment—and
this Court’s recognition of human experience—that
agency employees are likely to be less candid if they
believe their suggestions and recommendations in draft
documents are subject to disclosure, to the detriment of
governmental decisionmaking overall. See Sears, 421
U.S. at 150-151. The text of FOIA is categorical: the
statute “does not apply to” documents that fall within
an exemption. 5 U.S.C. 552(b). Thus, FOIA does not
permit respondent to “ ‘second-guess’ ” the protection
that Congress established for “the candor of present
and future agency decisionmaking” by claiming “ ‘caseby-case’ ” entitlement to disclosure of select agencies’
drafts based on their decisions to waive a privilege in
other contexts. National Security Archive, 752 F.3d at
464 (citation omitted). The Services’ officials have explained the multiple reasons why they asserted the deliberative process privilege in this case—among other

47
things, because they wanted to protect the candid deliberations reflected in those drafts and to avoid revealing
preliminary analysis that went un-adopted. See pp. 1213, supra. Those are just the sorts of interests that
Congress incorporated the deliberative process privilege into FOIA to protect. The fact that the Services
weighed the benefits and drawback of disclosure differently in other proceedings does nothing to undermine
the Services’ officials’ judgments here. 4
Respondent has “concede[d]” throughout this litigation that the Services are not estopped from asserting
the deliberative process privilege by having elected in
some other instances to waive the privilege over similar
documents. Pet. App. 35a (Wallace, J., dissenting); see
Br. in Opp. 37 n.8; see also Abtew, 808 F.3d at 900 (“[A]n
agency does not forfeit a FOIA exemption simply
by releasing similar documents in other contexts.”).
And there is good reason why prior disclosures should
not be held against the Services now: “[P]enalizing
agencies in that way would discourage them from voluntarily releasing information, which would thwart the
broader objective of transparent and open government.” National Security Archive, 752 F.3d at 464; see
Florida House of Representatives, 961 F.2d at 948;
Mobil Oil Corp. v. United States Envtl. Prot. Agency,
879 F.2d 698, 701 (9th Cir. 1989) (O’Scannlain, J.). The
As explained above, the “reasonably foresee[able]” harm standard that Congress added in the FOIA Improvement Act, 5 U.S.C.
552(a)(8)(A), does not apply to this case. See p. 4 n.1, supra. But in
any event, the Services have explained why they chose to invoke the
deliberative process privilege over the documents in this case, which
contain preliminary analysis that was not adopted, and why disclosure of those documents would harm interests protected by Exemption 5. See pp. 12-13, supra.
4

48
Services have sometimes found reason to voluntarily
release draft biological opinions, but Congress found it
obvious that such deliberative, pre-decisional documents
should be protected against compelled disclosure.
CONCLUSION

The judgment of the court of appeals should be
reversed.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
JOSEPH H. HUNT
JEFFREY BOSSERT CLARK
Assistant Attorneys General
EDWIN S. KNEEDLER
Deputy Solicitor General
MICHAEL R. HUSTON
Assistant to the Solicitor
General
H. THOMAS BYRON III
THOMAS PULHAM
Attorneys

MAY 2020

APPENDIX

1.

5 U.S.C. 552 provides in pertinent part:

Public information; agency rules, opinions, orders, records, and proceedings

(a) Each agency shall make available to the public
information as follows:
*

*

*

*

*

(2) Each agency, in accordance with published
rules, shall make available for public inspection in an
electronic format—
(A) final opinions, including concurring and
dissenting opinions, as well as orders, made in the
adjudication of cases;
(B) those statements of policy and interpretations which have been adopted by the agency
and are not published in the Federal Register;
(C) administrative staff manuals and instructions to staff that affect a member of the public;
*
(b)
are—

*

*

*

*

This section does not apply to matters that
*

*

*

*

*

(5) inter-agency or intra-agency memorandums
or letters that would not be available by law to a party
other than an agency in litigation with the agency,
provided that the deliberative process privilege shall
(1a)

2a
not apply to records created 25 years or more before
the date on which the records were requested;
*

*

*

*

*

Any reasonably segregable portion of a record shall be
provided to any person requesting such record after deletion of the portions which are exempt under this subsection. The amount of information deleted, and the
exemption under which the deletion is made, shall be indicated on the released portion of the record, unless including that indication would harm an interest protected
by the exemption in this subsection under which the deletion is made. If technically feasible, the amount of
the information deleted, and the exemption under which
the deletion is made, shall be indicated at the place in
the record where such deletion is made.
*
2.

*

*

*

*

16 U.S.C. 1536(a)-(b) provides:

Interagency cooperation
(a)

Federal agency actions and consultations

(1) The Secretary shall review other programs administered by him and utilize such programs in furtherance of the purposes of this chapter. All other Federal
agencies shall, in consultation with and with the assistance of the Secretary, utilize their authorities in furtherance of the purposes of this chapter by carrying out
programs for the conservation of endangered species
and threatened species listed pursuant to section 1533
of this title.

3a
(2) Each Federal agency shall, in consultation with
and with the assistance of the Secretary, insure that any
action authorized, funded, or carried out by such agency
(hereinafter in this section referred to as an “agency action”) is not likely to jeopardize the continued existence
of any endangered species or threatened species or result in the destruction or adverse modification of habitat
of such species which is determined by the Secretary,
after consultation as appropriate with affected States, to
be critical, unless such agency has been granted an exemption for such action by the Committee pursuant to
subsection (h) of this section. In fulfilling the requirements of this paragraph each agency shall use the best
scientific and commercial data available.
(3) Subject to such guidelines as the Secretary may
establish, a Federal agency shall consult with the Secretary on any prospective agency action at the request of,
and in cooperation with, the prospective permit or license applicant if the applicant has reason to believe
that an endangered species or a threatened species may
be present in the area affected by his project and that
implementation of such action will likely affect such species.
(4) Each Federal agency shall confer with the Secretary on any agency action which is likely to jeopardize
the continued existence of any species proposed to be
listed under section 1533 of this title or result in the destruction or adverse modification of critical habitat proposed to be designated for such species. This paragraph does not require a limitation on the commitment
of resources as described in subsection (d).

4a
(b)

Opinion of Secretary

(1)(A) Consultation under subsection (a)(2) with respect to any agency action shall be concluded within the
90-day period beginning on the date on which initiated
or, subject to subparagraph (B), within such other period of time as is mutually agreeable to the Secretary
and the Federal agency.
(B) In the case of an agency action involving a permit or license applicant, the Secretary and the Federal
agency may not mutually agree to conclude consultation
within a period exceeding 90 days unless the Secretary,
before the close of the 90th day referred to in subparagraph (A)—
(i) if the consultation period proposed to be
agreed to will end before the 150th day after the date
on which consultation was initiated, submits to the
applicant a written statement setting forth—
(I)
the reasons why a longer period is required,
(II) the information that is required to complete the consultation, and
(III) the estimated date on which consultation
will be completed; or
(ii) if the consultation period proposed to be
agreed to will end 150 or more days after the date on
which consultation was initiated, obtains the consent
of the applicant to such period.
The Secretary and the Federal agency may mutually
agree to extend a consultation period established under
the preceding sentence if the Secretary, before the close

5a
of such period, obtains the consent of the applicant to
the extension.
(2) Consultation under subsection (a)(3) shall be
concluded within such period as is agreeable to the Secretary, the Federal agency, and the applicant concerned.
(3)(A) Promptly after conclusion of consultation under paragraph (2) or (3) of subsection (a), the Secretary
shall provide to the Federal agency and the applicant, if
any, a written statement setting forth the Secretary’s
opinion, and a summary of the information on which the
opinion is based, detailing how the agency action affects
the species or its critical habitat. If jeopardy or adverse modification is found, the Secretary shall suggest
those reasonable and prudent alternatives which he believes would not violate subsection (a)(2) and can be
taken by the Federal agency or applicant in implementing the agency action.
(B) Consultation under subsection (a)(3), and an
opinion issued by the Secretary incident to such consultation, regarding an agency action shall be treated respectively as a consultation under subsection (a)(2), and
as an opinion issued after consultation under such subsection, regarding that action if the Secretary reviews
the action before it is commenced by the Federal agency
and finds, and notifies such agency, that no significant
changes have been made with respect to the action and
that no significant change has occurred regarding the
information used during the initial consultation.
(4) If after consultation under subsection (a)(2), the
Secretary concludes that—

6a
(A) the agency action will not violate such subsection, or offers reasonable and prudent alternatives which the Secretary believes would not violate
such subsection;
(B) the taking of an endangered species or a
threatened species incidental to the agency action
will not violate such subsection; and
(C) if an endangered species or threatened species of a marine mammal is involved, the taking is authorized pursuant to section 1371(a)(5) of this title;
the Secretary shall provide the Federal agency and the
applicant concerned, if any, with a written statement
that—
(i) specifies the impact of such incidental taking
on the species,
(ii) specifies those reasonable and prudent measures that the Secretary considers necessary or appropriate to minimize such impact,
(iii) in the case of marine mammals, specifies those
measures that are necessary to comply with section
1371(a)(5) of this title with regard to such taking, and
(iv) sets forth the terms and conditions (including, but not limited to, reporting requirements) that
must be complied with by the Federal agency or applicant (if any), or both, to implement the measures
specified under clauses (ii) and (iii).

7a
3.

50 C.F.R. 402.14 provides:

Formal consultation.

(a) Requirement for formal consultation. Each
Federal agency shall review its actions at the earliest
possible time to determine whether any action may affect listed species or critical habitat. If such a determination is made, formal consultation is required, except as noted in paragraph (b) of this section. The Director may request a Federal agency to enter into consultation if he identifies any action of that agency that
may affect listed species or critical habitat and for which
there has been no consultation. When such a request is
made, the Director shall forward to the Federal agency
a written explanation of the basis for the request.
(b) Exceptions. (1) A Federal agency need not
initiate formal consultation if, as a result of the preparation of a biological assessment under § 402.12 or as a result of informal consultation with the Service under
§ 402.13, the Federal agency determines, with the written concurrence of the Director, that the proposed action is not likely to adversely affect any listed species or
critical habitat.
(2) A Federal agency need not initiate formal consultation if a preliminary biological opinion, issued after
early consultation under § 402.11, is confirmed as the final biological opinion.
(c) Initiation of formal consultation. (1) A written request to initiate formal consultation shall be submitted to the Director and shall include:
(i) A description of the proposed action, including
any measures intended to avoid, minimize, or offset effects of the action. Consistent with the nature and

8a
scope of the proposed action, the description shall provide sufficient detail to assess the effects of the action
on listed species and critical habitat, including:
(A)

The purpose of the action;

(B)

The duration and timing of the action;

(C)

The location of the action;

(D) The specific components of the action and how
they will be carried out;
(E) Maps, drawings, blueprints, or similar schematics of the action; and
(F) Any other available information related to the
nature and scope of the proposed action relevant to its
effects on listed species or designated critical habitat.
(ii) A map or description of all areas to be affected
directly or indirectly by the Federal action, and not
merely the immediate area involved in the action (i.e.,
the action area as defined at § 402.02).
(iii) Information obtained by or in the possession of
the Federal agency and any applicant on the listed species and designated critical habitat in the action area (as
required by paragraph (c)(1)(ii) of this section), including available information such as the presence, abundance, density, or periodic occurrence of listed species
and the condition and location of the species’ habitat, including any critical habitat.
(iv) A description of the effects of the action and an
analysis of any cumulative effects.
(v) A summary of any relevant information provided by the applicant, if available.

9a
(vi) Any other relevant available information on the
effects of the proposed action on listed species or designated critical habitat, including any relevant reports
such as environmental impact statements and environmental assessments.
(2) A Federal agency may submit existing documents prepared for the proposed action such as NEPA
analyses or other reports in substitution for the initiation package outlined in this paragraph (c). However,
any such substitution shall be accompanied by a written
summary specifying the location of the information that
satisfies the elements above in the submitted document(s).
(3) Formal consultation shall not be initiated by the
Federal agency until any required biological assessment
has been completed and submitted to the Director in accordance with § 402.12.
(4) Any request for formal consultation may encompass, subject to the approval of the Director, a number of similar individual actions within a given geographical area, a programmatic consultation, or a segment of a comprehensive plan. The provision in this
paragraph (c)(4) does not relieve the Federal agency of
the requirements for considering the effects of the action or actions as a whole.
(d) Responsibility to provide best scientific and commercial data available. The Federal agency requesting formal consultation shall provide the Service with
the best scientific and commercial data available or which
can be obtained during the consultation for an adequate
review of the effects that an action may have upon listed

10a
species or critical habitat. This information may include the results of studies or surveys conducted by the
Federal agency or the designated non-Federal representative. The Federal agency shall provide any applicant with the opportunity to submit information for consideration during the consultation.
(e) Duration and extension of formal consultation.
Formal consultation concludes within 90 days after its
initiation unless extended as provided below. If an applicant is not involved, the Service and the Federal agency
may mutually agree to extend the consultation for a specific time period. If an applicant is involved, the Service and the Federal agency may mutually agree to extend the consultation provided that the Service submits
to the applicant, before the close of the 90 days, a written statement setting forth:
(1)

The reasons why a longer period is required,

(2) The information that is required to complete the
consultation, and
(3) The estimated date on which the consultation
will be completed. A consultation involving an applicant cannot be extended for more than 60 days without
the consent of the applicant. Within 45 days after concluding formal consultation, the Service shall deliver a
biological opinion to the Federal agency and any applicant.
(f ) Additional data. When the Service determines
that additional data would provide a better information
base from which to formulate a biological opinion, the
Director may request an extension of formal consultation and request that the Federal agency obtain additional data to determine how or to what extent the action

11a
may affect listed species or critical habitat. If formal
consultation is extended by mutual agreement according to § 402.14(e), the Federal agency shall obtain, to the
extent practicable, that data which can be developed
within the scope of the extension. The responsibility
for conducting and funding any studies belongs to the
Federal agency and the applicant, not the Service. The
Service’s request for additional data is not to be construed as the Service’s opinion that the Federal agency
has failed to satisfy the information standard of section
7(a)(2) of the Act. If no extension of formal consultation
is agreed to, the Director will issue a biological opinion
using the best scientific and commercial data available.
(g) Service responsibilities. Service responsibilities during formal consultation are as follows:
(1) Review all relevant information provided by the
Federal agency or otherwise available. Such review may
include an on-site inspection of the action area with representatives of the Federal agency and the applicant.
(2) Evaluate the current status and environmental
baseline of the listed species or critical habitat.
(3) Evaluate the effects of the action and cumulative effects on the listed species or critical habitat.
(4) Add the effects of the action and cumulative effects to the environmental baseline and in light of the
status of the species and critical habitat, formulate the
Service’s opinion as to whether the action is likely to
jeopardize the continued existence of listed species or
result in the destruction or adverse modification of critical habitat.

12a
(5) Discuss with the Federal agency and any applicant the Service’s review and evaluation conducted under paragraphs (g)(1) through (3) of this section, the basis for any finding in the biological opinion, and the availability of reasonable and prudent alternatives (if a jeopardy opinion is to be issued) that the agency and the applicant can take to avoid violation of section 7(a)(2). The
Service will utilize the expertise of the Federal agency
and any applicant in identifying these alternatives. If
requested, the Service shall make available to the Federal agency the draft biological opinion for the purpose
of analyzing the reasonable and prudent alternatives.
The 45-day period in which the biological opinion must
be delivered will not be suspended unless the Federal
agency secures the written consent of the applicant to
an extension to a specific date. The applicant may request a copy of the draft opinion from the Federal agency.
All comments on the draft biological opinion must be
submitted to the Service through the Federal agency,
although the applicant may send a copy of its comments
directly to the Service. The Service will not issue its
biological opinion prior to the 45-day or extended deadline while the draft is under review by the Federal agency.
However, if the Federal agency submits comments to
the Service regarding the draft biological opinion within
10 days of the deadline for issuing the opinion, the Service is entitled to an automatic 10-day extension on the
deadline.
(6) Formulate discretionary conservation recommendations, if any, which will assist the Federal agency
in reducing or eliminating the impacts that its proposed
action may have on listed species or critical habitat.

13a
(7) Formulate a statement concerning incidental
take, if such take is reasonably certain to occur.
(8) In formulating its biological opinion, any reasonable and prudent alternatives, and any reasonable
and prudent measures, the Service will use the best scientific and commercial data available and will give appropriate consideration to any beneficial actions as proposed or taken by the Federal agency or applicant, including any actions taken prior to the initiation of consultation. Measures included in the proposed action or
a reasonable and prudent alternative that are intended
to avoid, minimize, or offset the effects of an action are
considered like other portions of the action and do not
require any additional demonstration of binding plans.
(h) Biological opinions.
ion shall include:

(1) The biological opin-

(i) A summary of the information on which the
opinion is based;
(ii) A detailed discussion of the environmental
baseline of the listed species and critical habitat;
(iii) A detailed discussion of the effects of the action
on listed species or critical habitat; and
(iv) The Service’s opinion on whether the action is:
(A) Likely to jeopardize the continued existence of
a listed species or result in the destruction or adverse
modification of critical habitat (a “jeopardy” biological
opinion); or
(B) Not likely to jeopardize the continued existence
of a listed species or result in the destruction or adverse
modification of critical habitat (a “no jeopardy” biological opinion).

14a
(2) A “jeopardy” biological opinion shall include
reasonable and prudent alternatives, if any. If the Service is unable to develop such alternatives, the Service
will indicate that to the best of its knowledge there are
no reasonable and prudent alternatives.
(3)

The Service may adopt all or part of:

(i)

A Federal agency’s initiation package; or

(ii) The Service’s analysis required to issue a permit under section 10(a) of the Act in its biological opinion.
(4) A Federal agency and the Service may agree to
follow an optional collaborative process that would further the ability of the Service to adopt the information
and analysis provided by the Federal agency during consultation in the development of the Service’s biological
opinion to improve efficiency in the consultation process
and reduce duplicative efforts. The Federal agency
and the Service shall consider the nature, size, and scope
of the action or its anticipated effects on listed species
or critical habitat, and other relevant factors to determine whether an action or a class of actions is appropriate for this process. The Federal agency and the Service may develop coordination procedures that would facilitate adoption of the initiation package with any necessary supplementary analyses and incidental take
statement to be added by the Service, if appropriate, as
the Service’s biological opinion in fulfillment of section
7(b) of the Act.
(i) Incidental take. (1) In those cases where
the Service concludes that an action (or the implementation of any reasonable and prudent alternatives) and

15a
the resultant incidental take of listed species will not violate section 7(a)(2), and, in the case of marine mammals, where the taking is authorized pursuant to section
101(a)(5) of the Marine Mammal Protection Act of 1972,
the Service will provide with the biological opinion a
statement concerning incidental take that:
(i) Specifies the impact, i.e., the amount or extent,
of such incidental taking on the species (A surrogate
(e.g., similarly affected species or habitat or ecological
conditions) may be used to express the amount or extent
of anticipated take provided that the biological opinion
or incidental take statement: Describes the causal link
between the surrogate and take of the listed species, explains why it is not practical to express the amount or
extent of anticipated take or to monitor take-related impacts in terms of individuals of the listed species, and
sets a clear standard for determining when the level of
anticipated take has been exceeded.);
(ii) Specifies those reasonable and prudent measures
that the Director considers necessary or appropriate to
minimize such impact;
(iii) In the case of marine mammals, specifies those
measures that are necessary to comply with section
101(a)(5) of the Marine Mammal Protection Act of 1972
and applicable regulations with regard to such taking;
(iv) Sets forth the terms and conditions (including,
but not limited to, reporting requirements) that must be
complied with by the Federal agency or any applicant
to implement the measures specified under paragraphs
(i)(1)(ii) and (i)(1)(iii) of this section; and
(v) Specifies the procedures to be used to handle or
dispose of any individuals of a species actually taken.

16a
(2) Reasonable and prudent measures, along with
the terms and conditions that implement them, cannot
alter the basic design, location, scope, duration, or timing of the action and may involve only minor changes.
(3) In order to monitor the impacts of incidental
take, the Federal agency or any applicant must report
the progress of the action and its impact on the species
to the Service as specified in the incidental take statement. The reporting requirements will be established
in accordance with 50 CFR 13.45 and 18.27 for FWS and
50 CFR 216.105 and 222.301(h) for NMFS.
(4) If during the course of the action the amount or
extent of incidental taking, as specified under paragraph
(i)(1)(i) of this Section, is exceeded, the Federal agency
must reinitiate consultation immediately.
(5) Any taking which is subject to a statement as
specified in paragraph (i)(1) of this section and which is
in compliance with the terms and conditions of that
statement is not a prohibited taking under the Act, and
no other authorization or permit under the Act is required.
(6) For a framework programmatic action, an incidental take statement is not required at the programmatic level; any incidental take resulting from any action subsequently authorized, funded, or carried out under the program will be addressed in subsequent section
7 consultation, as appropriate. For a mixed programmatic action, an incidental take statement is required at
the programmatic level only for those program actions
that are reasonably certain to cause take and are not
subject to further section 7 consultation.

17a
( j) Conservation recommendations. The Service
may provide with the biological opinion a statement containing discretionary conservation recommendations.
Conservation recommendations are advisory and are
not intended to carry any binding legal force.
(k) Incremental steps. When the action is authorized by a statute that allows the agency to take incremental steps toward the completion of the action, the
Service shall, if requested by the Federal agency, issue
a biological opinion on the incremental step being considered, including its views on the entire action. Upon
the issuance of such a biological opinion, the Federal
agency may proceed with or authorize the incremental
steps of the action if:
(1) The biological opinion does not conclude that
the incremental step would violate section 7(a)(2);
(2) The Federal agency continues consultation with
respect to the entire action and obtains biological opinions, as required, for each incremental step;
(3) The Federal agency fulfills its continuing obligation to obtain sufficient data upon which to base the
final biological opinion on the entire action;
(4) The incremental step does not violate section
7(d) of the Act concerning irreversible or irretrievable
commitment of resources; and
(5) There is a reasonable likelihood that the entire
action will not violate section 7(a)(2) of the Act.
(l) Expedited consultations. Expedited consultation is an optional formal consultation process that a
Federal agency and the Service may enter into upon mutual agreement. To determine whether an action or a

18a
class of actions is appropriate for this type of consultation, the Federal agency and the Service shall consider
the nature, size, and scope of the action or its anticipated
effects on listed species or critical habitat and other relevant factors. Conservation actions whose primary
purpose is to have beneficial effects on listed species will
likely be considered appropriate for expedited consultation.
(1) Expedited timelines. Upon agreement to use
this expedited consultation process, the Federal agency
and the Service shall establish the expedited timelines
for the completion of this consultation process.
(2) Federal agency responsibilities. To request
initiation of expedited consultation, the Federal agency
shall provide all the information required to initiate consultation under paragraph (c) of this section. To maximize efficiency and ensure that it develops the appropriate level of information, the Federal agency is encouraged to develop its initiation package in coordination
with the Service.
(3) Service responsibilities. In addition to the
Service’s responsibilities under the provisions of this
section, the Service will:
(i) Provide relevant species information to the
Federal agency and guidance to assist the Federal
agency in completing its effects analysis in the initiation
package; and
(ii) Conclude the consultation and issue a biological
opinion within the agreed-upon timeframes.
(m) Termination of consultation. (1) Formal consultation is terminated with the issuance of the biological
opinion.

19a
(2) If during any stage of consultation a Federal
agency determines that its proposed action is not likely
to occur, the consultation may be terminated by written
notice to the Service.
(3) If during any stage of consultation a Federal
agency determines, with the concurrence of the Director, that its proposed action is not likely to adversely affect any listed species or critical habitat, the consultation is terminated.

